         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Security Planning for National
Security Information Systems at
Lawrence Livermore National
Laboratory




OAS-M-11-03                          April 2011
                                  Department of Energy
                                    Washington, DC 20585
                                          April 15, 2011


MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
                 ADMINISTRATION


FROM:                    Rickey R. Hass
                         Deputy Inspector General for Audits and Inspections
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Security Planning for National
                         Security Information Systems at Lawrence Livermore National
                         Laboratory"
BACKGROUND

The National Nuclear Security Administration (NNSA) is responsible for the maintenance and
security of the Nation's nuclear stockpile, management of nuclear nonproliferation activities, and
operation of the naval reactor programs. A significant amount of the information related to these
mission activities is classified and stored or processed in national security information systems.
The Lawrence Livermore National Laboratory (LLNL) maintains various national security
systems, ranging from diskless workstations to large supercomputers, which process sensitive
and classified information in support of program objectives.

In the past, physical and cyber security controls over sensitive and classified information
throughout the Department of Energy (Department) have been areas of concern. For example,
the Office of Inspector General Special Inquiry on Selected Controls over Classified Information
at the Los Alamos National Laboratory (OAS-SR-07-01, November 2006) disclosed weaknesses
that contributed to the compromise of classified data. In addition, our report on Certification and
Accreditation of the Department's National Security Information Systems (DOE/IG-0800, August
2008) identified that enhancements were needed at numerous sites, including LLNL, in the areas
of risk management, security planning and contingency planning to reduce the risk of
compromise to national security systems. Given the importance of this area, we initiated this
audit to determine whether NNSA had developed and implemented an effective risk management
process over its national security information systems at LLNL.

RESULTS OF AUDIT

Our review found that LLNL had taken steps to improve the risk management process for its
national security information systems based on our prior reviews. In particular, officials had
initiated actions to address the risks associated with separation of incompatible cyber security
duties and the use of mixed-media environments – situations where classified and unclassified
systems are co-located. However, we found that additional actions are needed in the area of
security planning and policies to reduce the risk of compromise. In particular, we noted that:

   •   Three of four system security plans we reviewed were incomplete and did not always
       sufficiently describe security controls and how they were implemented;
                                                2


   •   Contractor officials made security-significant changes to national security systems that
       potentially increased the risk to those systems without first obtaining approval from the
       Federal Authorizing Official – the person ultimately responsible for accepting risks posed
       by changes to information systems; and,

   •   NNSA had not incorporated security controls established by the Committee on National
       Security Systems, the organization designated by Executive Order 13231 to develop
       policies and standards for protecting national security information systems, into its cyber
       security policy, thus negatively impacting LLNL's ability to meet Federal security
       requirements.

These issues were due, at least in part, to inadequate program and site-level policies and
procedures for protecting national security information systems. For example, NNSA cyber
security program policies had not been updated since May 2008, and were not aligned with
current Federal and Department requirements. The problems identified persisted because of
insufficient performance monitoring by Headquarters and Site Office Federal officials. For
instance, Federal officials responsible for oversight had not always ensured that changes to
systems were appropriate and in accordance with risks identified and accepted as part of the
systems' authorization to operate.

Without improvements, the weaknesses identified may limit program and site-level officials'
ability to make informed risk-based decisions that support the protection of classified
information and the systems on which it resides. LLNL officials reported that they are currently
reforming the site's system authorization process and recertifying its national security
information systems to better align with current NNSA policies. While these are positive
actions, additional effort is necessary. As such, we have made several recommendations that, if
fully implemented, should help enhance NNSA's and LLNL's management of risk over national
security information systems.

MANAGEMENT REACTION

Management indicated that it generally agreed with the report's findings. While the Livermore
Site Office did not agree with the report's recommendations, management commented that
corrective actions were already underway to address issues identified in the report. However, no
specific corrective actions were included in management's comments. In addition, management
disagreed with several of the conclusions in the report related to policy implementation and
performance monitoring. As appropriate, we modified our report in response to management's
comments which are included in their entirety in Appendix 3.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Chief of Staff
    Chief Health, Safety and Security Officer
    Chief Financial Officer
    Chief Information Officer
REPORT ON SECURITY PLANNING FOR NATIONAL SECURITY
INFORMATION SYSTEMS AT LAWRENCE LIVERMORE
NATIONAL LABORATORY

TABLE OF
CONTENTS


Security Planning over National Security Information Systems

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................6


Appendices

1.    Objective, Scope and Methodology .............................................................................9

2.    Related Reports ..........................................................................................................11

3.    Management Comments .............................................................................................12
Security Planning for National Security Information Systems at
Lawrence Livermore National Laboratory
Security Planning over   Our audit found that system security plans for certain national
National Security        security information systems at Lawrence Livermore National
Information Systems      Laboratory (LLNL) were incomplete and did not always
                         sufficiently describe security controls and/or how controls were
                         implemented. In addition, the Livermore Site Office (LSO)
                         Federal Authorizing Official was not always notified when
                         changes that may have been security-significant were made to
                         LLNL's national security systems. We also found that
                         minimum baseline security controls required by the Committee
                         on National Security Systems (CNSS) had not been
                         incorporated into National Nuclear Security Administration
                         (NNSA) policy, thereby impacting LLNL's ability to meet
                         Federal cyber security requirements. As noted in Executive
                         Order 13231, CNSS is the originator of national-level policies
                         and standards for the security of national security information
                         systems.

                                           Minimum Security Controls

                         Three of four system security plans we reviewed were
                         incomplete and did not always sufficiently describe security
                         controls and how they were implemented on the systems.
                         Internal oversight organizations have identified similar issues
                         during prior reviews at LLNL and our current review found
                         that these weaknesses had not been fully addressed. For
                         instance:

                            •   LLNL's Security Plan Policy (SPP) which described
                                institutional security controls common to numerous
                                classified information systems was not always
                                complete. For instance, although required by NNSA
                                policy, the plan did not adequately address how records
                                of attempts to access facilities housing classified
                                systems were to be maintained. In another instance, the
                                SPP did not sufficiently describe how fire protection
                                controls had been implemented to prevent or suppress
                                fires. Without a thorough description of how these
                                controls are implemented, security assessors may not be
                                able to design test procedures to determine how
                                effectively controls are being implemented. We noted
                                similar weaknesses for more than 25 controls covering
                                areas such as media protection, system integrity, and
                                system acquisition in the SPP. The issues identified are
                                particularly important in this case because the controls
                                in the SPP are to be implemented on various national
                                security systems across the laboratory.

Page 1                                                                Details of Finding
             • Although NNSA policy required that all security
               controls be identified within security plans by name and
               description, LLNL plans we reviewed did not always
               provide this level of specificity. Rather, we found that
               the security controls documented in three of the security
               plans we reviewed contained only high-level
               information about the systems, their boundaries, and
               how they were protected. However, many of the
               controls identified did not provide sufficient detail so
               that an independent security assessor could identify
               what was required and how the control had been
               implemented. For example, while the plan for the
               system containing Secret Restricted Data described
               diskless computers as having backups performed
               monthly, it did not identify where, or in what form, the
               backups were stored or how backups were to be tested
               for reliability. In preliminary comments on our report,
               Federal management stated that it had identified similar
               weaknesses and had directed LLNL to take corrective
               actions.

             • The Secure Computing Facility (SCF) system security
               plan also disclosed that affected parties should be
               notified and the system owner should implement
               procedures to purchase replacement equipment in the
               event the SCF systems were unavailable. An SCF
               official explained that should the LLNL location be
               deemed unsuitable, NNSA would likely copy the
               alternate processing site's supercomputer design, which
               is significantly different from that currently utilized by
               the system, to re-build the system at the alternate
               location. The official also stated that, operationally,
               this made more sense than rebuilding the SCF's unique
               architecture at the alternate site. However, this course
               of action and the associated risk-based rationale was not
               documented in the system security plan; therefore, the
               Federal Authorizing Official had no opportunity to
               evaluate the balance of risks and mitigation inherent in
               this course of action.

                       Managing Changes to System Risk

         The Federal Authorizing Official was not always notified when
         potentially security-significant changes were made to LLNL's
         national security systems. For example, contractor officials at
         LLNL made security-significant changes to the Ground-Based

Page 2                                               Details of Finding
         Nuclear Explosion Monitoring (GNEM) system without first
         notifying and obtaining approval from the Federal Authorizing
         Official – the person ultimately responsible for accepting risks
         posed by changes. Specifically, 2 of 10 changes made since
         the system was last authorized to operate in May 2007, were
         considered security-significant by LLNL contractor officials.
         We also noted that two additional changes involving physical
         modifications to the system's accreditation boundary should
         have been considered security-significant but were not.
         However, none of these changes had been formally presented
         to or approved by the Federal Authorizing Official even though
         they affected the level of risk to the information system. We
         identified similar issues at LLNL in our previous audit on
         Certification and Accreditation of the Department's National
         Security Information Systems (DOE/IG-0800, August 2008).

         In addition, change control forms completed by contractor
         officials for the GNEM system stated that the changes had
         "been reviewed and the implementation is approved for
         classified data processing under the existing accreditation."
         However, the National Institute of Standards and Technology
         (NIST) and NNSA policy both require that only the Federal
         Authorizing Official is allowed to make risk acceptance and
         operation decisions. As noted above, none of the 10 change
         forms had been reviewed and/or approved by the Federal
         Authorizing Official. During our discussions, the Federal
         Authorizing Official stated that he was not familiar with the
         change forms for the GNEM system. Furthermore, in the case
         of the GNEM system, the security plan had not been updated to
         reflect and incorporate the security-significant changes
         identified even though required by NIST. Without timely
         updates, the Federal Authorizing Official may not have been
         aware that the GNEM system's components required different
         security controls because the system had been moved to a new
         location due to the destruction of the building described in the
         security plan. Also, we noted that security-significant changes
         to the Credibility Assessment Network and Protection Planning
         & Program Support systems were not approved by the Federal
         Authorizing Official.

                   Incorporation of National-Level Standards

         During our audit a separate matter came to our attention that
         impacted the completeness of system security plans at LLNL.
         Specifically, we found that minimum baseline security controls
         required by the CNSS and DOE Order 205.1A had not been



Page 3                                               Details of Finding
                           incorporated into NNSA policy. Direction issued by CNSS
                           requires that control baselines documented in NIST Special
                           Publication 800-53, Revision 3, be incorporated into system
                           security plans for systems authorized after October 2009.
                           However, we noted that more than 90 security controls and
                           control enhancements related to areas such as access controls
                           and media protection had not been incorporated into the NNSA
                           Policy Letters. As a result, approximately 32 percent of
                           required controls were not required to be documented within
                           the site system security plans or tested as part of the system
                           authorization process. As noted in DOE Order 205.1A,
                           Program Cyber Security Plans are living documents and must
                           be maintained to comply with, among other things, policies
                           promulgated by the CNSS.

Security Policies and  The issues identified were due, at least in part, to inadequate
Procedures and         program-level policies for protecting national security
Performance Monitoring information systems. In addition, insufficient performance
                       monitoring by Headquarters and LSO officials contributed to
                       weaknesses not being identified and addressed, as appropriate.

                                       Cyber Security Policies and Procedures

                           NNSA officials had not established policy that was as stringent
                           as Department of Energy (Department) directives and Federal
                           requirements. In particular, NNSA Policy Letters had not been
                           updated to incorporate revisions to the Federal minimum
                           required security control baselines. We noted that NNSA
                           policy had not been revised since May 2008 and, therefore, did
                           not direct sites to follow current Federal requirements such as
                           CNSS Instruction 1253. In comments on our draft report,
                           NNSA management stated that updates to Department-level
                           directives would require implementation of the CNSS controls.
                           However, management did not provide a timeline for the
                           issuance and implementation of the updated policy. As noted,
                           approximately 32 percent of required controls had not been
                           fully addressed as part of the system authorization process. As
                           LLNL and other NNSA sites are required to follow the NNSA
                           program-level policy, it is important that the policies be
                           updated to reflect current Federal requirements.
                                                 Performance Monitoring

                           NNSA officials at Headquarters and the LSO had not always
                           performed sufficient monitoring of activities involving national
                           security information systems at LLNL. During our discussions
                           with Headquarters officials, we learned that they had not



Page 4                                                                 Details of Finding
         conducted any recent reviews of national security information
         systems due to competing demands and resource constraints.
         Rather, Headquarters officials depended on Federal personnel
         at the sites to provide sufficient oversight. However, we noted
         that, in December 2009, NNSA imposed a six-month
         moratorium on assessment activities while a new oversight
         approach was developed. As a result, no reviews of national
         security information systems were conducted at NNSA sites
         until late in Fiscal Year 2010. LSO management noted that it
         had since conducted a comprehensive survey, and the site was
         working toward addressing those issues identified during the
         survey and in our report.

         We found that system security plans were incomplete because
         LLNL officials had not followed NNSA policies that required a
         thorough description of how all minimum security controls
         were being implemented. The LSO Federal Authorizing
         Official stated that the security plans did not provide much
         detail about the systems because LLNL Information
         Technology program officials, system owners, and others with
         security-significant responsibilities, were intimately familiar
         with the systems and operating environment. Therefore, he
         believed that the system security plans and supporting
         documents were sufficient. However, in addition to being
         contrary to Federal and Department direction, this practice
         could prove problematic should individuals that are unfamiliar
         with the environment need to review or implement the plans.
         For example, a third-party security assessor would not be
         familiar enough with the LLNL computing environment to
         design assessment procedures for a system without reliance on
         a well-defined system security plan and SPP document. In
         addition, an assessment conducted by the Department's Office
         of Health, Safety and Security in 2008 identified similar
         weaknesses with the site's security planning activities. To help
         address this issue, subsequent to our review, LSO officials
         stated that they had provided guidance to LLNL regarding the
         level of specificity required for security control descriptions.

         The designated LSO Federal official also had not ensured that
         security-significant system changes were brought to his
         attention for review and approval. Although NNSA policy
         required that security-significant changes be determined by the
         Designated Approving Authority, site-level policy and
         procedures approved by the Federal Authorizing Official gave
         LLNL's cyber security organization full discretion to determine
         whether security-significant changes to national security



Page 5                                               Details of Finding
                      systems increased residual risk and thus should be presented to
                      the designated Federal official. The Federal Authorizing
                      Official's representative told us that having these changes
                      approved by the cyber security organization was acceptable
                      because that official was comfortable that the cyber security
                      organization had enough familiarity with the systems. To his
                      credit, the designated Federal official recently issued direction
                      to the site outlining specific instances of system changes that
                      required his explicit approval. In addition, the Federal
                      Authorizing Official's representative noted that LSO performed
                      broad assessments to determine whether the site contractor had
                      met contract performance measures for security, which
                      included limited reviews of security controls on national
                      security information systems.

National Security     Without improvements, LLNL contractor and Federal officials
Information Systems   may not be able to make informed risk-based decisions that
Assurance             support the protection of classified information and the systems
                      on which it resides. For example, LLNL contractor officials
                      did not test all Federally-required controls during recent system
                      authorization activities due to their exclusion from program-
                      level policy. As a result, the existence and need for
                      implementation of those controls was not part of the site's risk-
                      based consideration to operate the systems. In addition,
                      incomplete descriptions of controls in system security plans
                      may limit the ability of officials to test the effectiveness of
                      controls over the information systems. Furthermore, system
                      operators could potentially introduce untested, security-
                      significant changes that may impact the risk to the LLNL
                      computing environment if changes are made without the
                      knowledge and approval of designated Federal officials. As
                      noted in our Special Inquiry Report to the Secretary: Selected
                      Controls over Classified Information at the Los Alamos
                      National Laboratory (OAS-SR-07-01, November 2006),
                      numerous weaknesses in controls over national security
                      information systems, including an inadequate change control
                      process, contributed to the unauthorized release of classified
                      information.

RECOMMENDATIONS       To help improve the effectiveness of the risk management
                      process for national security systems, we recommend that the
                      Administrator, National Nuclear Security Administration, in
                      conjunction with the NNSA Chief Information Officer:




Page 6                                         Recommendations and Comments
                1. Revise the NNSA Policy Letters to more closely reflect
                   current direction from the Department and the CNSS;
                   and,

                2. Develop and implement effective procedures for
                   monitoring the adequacy and sufficiency of protections
                   over national security information systems.

             We recommend that the Manager, Livermore Site Office, direct
             cognizant Lawrence Livermore National Security officials to:

                3. Ensure that information system owners and system
                   security officers employ a fully effective risk
                   management process, to include ensuring that system
                   security plans adequately address all minimum security
                   controls; and,

                4. Ensure that security-significant changes potentially
                   impacting the risk to information systems are
                   consistently elevated to the Federal Authorizing Official
                   for explicit approval.

MANAGEMENT   Management indicated that it generally agreed with the report's
REACTION     findings. While LSO did not agree with the report's
             recommendations, management commented that corrective
             actions were already underway to address weaknesses identified
             in the report. However, no specific corrective actions were
             included in management's comments. In addition, management
             disagreed with several of the conclusions in the report, as
             summarized below.

             Management commented that it did not believe the conclusions
             documented in our report can be extrapolated to determine the
             state of the entire risk management program at LLNL. Rather,
             management stated that the findings in the report should only
             reflect issues surrounding the maintenance of security
             documentation and issues that LSO had self-identified as part of
             its performance monitoring process. In addition, management
             commented that it was not appropriate to measure LLNL against
             Federal requirements for security controls and system
             categorizations that were not included in its contract or NNSA
             policy. LSO believed that it was inappropriate to require LLNL
             to implement controls not authorized or funded by the
             Department and/or NNSA. Specifically, management stated
             that LLNL was not required to follow CNSS Instruction 1253,
             but noted that the Department was working to update its cyber
             security directive to include this Federal policy. LSO officials


Page 7                                                          Comments
                   also disclosed that the issues we identified with the site's
                   performance monitoring activities were a result of direction
                   received from NNSA Headquarters. Furthermore, management
                   was concerned with changes to the scope of the audit and
                   commented that the report should be modified to separate issues
                   at NNSA Headquarters from those specific to LLNL. At the
                   conclusion of our audit, NNSA officials commented that a
                   contributing factor to the problems identified during our review
                   was the Department's inability to update existing cyber security
                   directives in a timely manner to meet Federal requirements.
                   Officials believed that this impacted their ability to update
                   program-level policies and resulted in certain security
                   requirements not being met.

AUDITOR COMMENTS   While we acknowledge management's concerns, we believe that
                   the findings and recommendations identified in the report are
                   appropriate. In particular, we agree that LLNL was not
                   responsible for implementing baseline security controls that
                   were not included in contractually required directives.
                   However, as noted in our report, it was the responsibility of
                   NNSA management to ensure that its policies were updated in a
                   timely manner and implemented as appropriate. We also agree
                   that LSO's performance monitoring activities were impacted
                   when NNSA issued its moratorium on site assessments; and we
                   modified our report to better reflect the reasons monitoring had
                   not been performed.

                   Although management noted in its comments that the
                   Department was updating DOE Order 205.1A to include CNSS
                   Instruction 1253, such modifications remained incomplete. In
                   addition, most of the issues identified in our report were related
                   to not meeting existing Department and/or NNSA requirements,
                   not CNSS Instruction 1253. Furthermore, while management
                   was concerned about changes to the scope of the audit, we
                   believe it was appropriate to limit our review to LLNL and
                   Headquarters due to the issues identified at the site. Also,
                   because a number of the weaknesses identified at LLNL were
                   the result of inadequate policies issued by NNSA Headquarters,
                   the inclusion of both Headquarters and site-specific issues in the
                   report was appropriate. In addition, our evaluation focused on
                   reviews of documentation maintained to support the site's risk
                   management process as well as reviews of the processes used by
                   the site to manage cyber security. We modified our report, as
                   necessary, in response to management's comments.
                   Management's comments are included in Appendix 3.




Page 8                                                                 Comments
Appendix 1

OBJECTIVE     To determine whether the National Nuclear Security
              Administration (NNSA) had developed and implemented an
              effective risk management process over its national security
              information systems at the Lawrence Livermore National
              Laboratory (LLNL).

SCOPE         The audit was performed between March 2010 and April 2011,
              at Department of Energy (Department) Headquarters in
              Washington, DC and at the LLNL in Livermore, California.
              The audit was limited to a review of LLNL's risk management
              process for national security information systems, but did not
              include a review of systems containing Sensitive
              Compartmented Information.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed applicable laws and Department directives,
                       including those pertaining to security of national
                       security information systems;

                   •   Reviewed applicable standards and guidance issued
                       by the Office of Management and Budget, the
                       Committee on National Security Systems, and the
                       National Institute of Standards and Technology;

                   •   Reviewed prior reports issued by the Office of
                       Inspector General and the Office of Health, Safety
                       and Security;

                   •   Obtained documentation from and held discussions
                       with officials from the Department's Office of the
                       Chief Information Officer, NNSA, and contractor
                       personnel relating to system security; and,

                   •   Analyzed system documentation to determine
                       whether the risks of operating selected national
                       security information systems had been addressed.

              We conducted this performance audit in accordance with
              generally accepted Government auditing standards. Those
              standards require that we plan and perform the audit to obtain
              sufficient, appropriate evidence to provide a reasonable basis
              for our findings and conclusions based on our audit objectives.
              We believe that the evidence obtained provides a reasonable
              basis for our findings and conclusions based on our audit
              objectives. Accordingly, we assessed significant internal



Page 9                                 Objective, Scope and Methodology
Appendix 1 (continued)

                    controls and NNSA's implementation of the Government
                    Performance and Results Act of 1993 and determined that it
                    had established performance measures for cyber security
                    reviews, but these were not necessarily specific to the
                    management and operation of its national security information
                    systems. Because our review was limited, it would not have
                    necessarily disclosed all internal control deficiencies that may
                    have existed at the time of our evaluation. We did not rely on
                    computer-processed data to satisfy our audit objectives. Our
                    review also did not include technical testing of specific
                    information systems.

                    An exit conference was held with NNSA officials on April 4,
                    2011.




Page 10                                      Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General Reports

   •   Certification and Accreditation of the Department's National Security Information
       Systems (DOE/IG-0800, August 2008). We found that at five of the six sites included
       in our audit, risks such as a lack of separation of duties and the presence of
       unclassified and classified systems operating in the same environment had not been
       addressed in system security plans. In many instances, security plans, or changes to
       systems, were not appropriately approved by Department of Energy (Department)
       officials. Further, in certain cases, plans did not accurately reflect the actual
       environment in which the system operated; and, at five of the six sites reviewed,
       contingency plans had not been developed for national security information systems –
       a critical activity required to mitigate the risk of service disruption. Several problems
       contributed to the weaknesses identified during our review. In particular, the
       Department had not yet fully developed and implemented adequate cyber security
       policies to ensure that national security information systems were adequately
       protected. In addition, Federal and contractor officials did not always utilize effective
       mechanisms to monitor performance of security controls.

   •   Special Inquiry Report to the Secretary: Selected Controls over Classified
       Information at the Los Alamos National Laboratory (OAS-SR-07-01, November
       2006). Our review revealed that significant and pervasive information security
       weaknesses placed Los Alamos National Laboratory's (LANL) classified computing
       operations and assets at high risk. We found that while LANL had developed policies
       designed to protect classified information, in many instances these were not
       effectively deployed to prevent serious security weaknesses at the classified
       computing facility. Specifically, classified information was diverted by a subcontract
       employee using an unapproved – but readily accessible – networked printer and an
       unauthorized flash drive to copy and remove classified information. In addition, we
       identified deficiencies related to mixed-media vulnerabilities, unneeded access to
       computing resources, as well as a failure to operate within classified information
       system accreditation boundaries.




Page 11                                                                      Related Reports
Appendix 3




Page 12      Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                             IG Report No. OAS-M-11-03

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
